                                              ASSISTANT INSPECTOR GENERAL’S REPORT

U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210


                          ASSISTANT INSPECTOR GENERAL’S REPORT

TO THE HONORABLE                                    resources for the years then ended. These
ELAINE L. CHAO                                      financial statements are the responsibility
SECRETARY OF LABOR                                  of DOL’s management. Our responsibility
                                                    is to express an opinion on these financial
The Chief Financial Officers Act of 1990            statements based on our audit.
(CFO Act) requires agencies to report
annually to Congress on their financial             We conducted our audit in accordance with
status and any other information needed to          auditing standards generally accepted in the
fairly present the agencies’ financial              United States of America; the standards
position and results of operations. To meet         applicable to financial audits contained in
the CFO Act reporting requirements, the             Government Auditing Standards, issued by
United States Department of Labor (DOL),            the Comptroller General of the United
a Department of the United States                   States; and Office of Management and
Government, prepares annual financial               Budget (OMB) Bulletin No. 01-02, Audit
statements, which we audit.                         Requirements for Federal Financial
                                                    Statements. These standards require that
The objectives of our audit are to express          we plan and perform the audit to obtain
an opinion on the fair presentation of              reasonable assurance about whether the
DOL’s Fiscal Years 2002 and 2001                    financial statements are free of material
principal financial statements, obtain an           misstatements. An audit includes
understanding of the Department’s internal          examining, on a test basis, evidence
control, and test compliance with laws and          supporting the amounts, and disclosures in
regulations that could have a direct and            the financial statements. An audit also
material effect on the financial statements.        includes assessing the accounting principles
                                                    used and significant estimates made by
Additionally, our objectives included               management, as well as evaluating the
expressing an opinion on DOL’s                      overall financial statement presentation.
compliance with requirements of the                 We believe that our audit provides a
Federal Financial Management                        reasonable basis for our opinion.
Improvement Act of 1996, based on our
examination.                                        RELATIONSHIP TO THE
                                                    SINGLE AUDIT ACT
We have audited the consolidated balance
sheets of DOL as of September 30, 2002              The financial statements for the years
and 2001 and the related consolidated               ended September 30, 2002 and 2001,
statements of net cost, changes in net              include:
position, financing, and custodial activity
and the combined statements of budgetary

OIG Report No. 22-03-004-13-001       Page 1.1
ASSISTANT INSPECTOR GENERAL’S REPORT

•    costs for grants, subsidies, and            OPINION ON FINANCIAL
     contributions primarily with various        STATEMENTS
     state and local governments and
     nonprofit organizations in the amount       In our opinion the financial statements
     of $10.0 billion for FY 2002 and $8.2       referred to above present fairly, in all
     billion for FY 2001;                        material respects, in conformity with
                                                 accounting principles generally accepted in
•    costs for unemployment benefits             the United States of America:
     incurred by state employment security
     agencies in the amount of $50.0             •    the assets, liabilities, and net position
     billion for FY 2002 and $28.6 billion            of the Department of Labor as of
     for FY 2001;                                     September 30, 2002 and 2001; and

•    state employer tax revenue of $19.3         •    the net cost, changes in net position,
     billion for FY 2002 and $19.9 billion            budgetary resources, reconciliation of
     for FY 2001;                                     net cost to budgetary resources, and
                                                      custodial activity for the years ended
•    net receivables for state                        September 30, 2002 and 2001.
     unemployment taxes, reimbursable
     employers, and benefit overpayments         As described in Note 1 (C and D) to the
     of $1.0 billion for FY 2002 and $.9         financial statements, the FY 2001 financial
     billion for FY 2001; and                    statements have been restated to adopt a
                                                 provision in OMB Bulletin No. 01-09 that
•    reimbursements from state, local, and       requires certain budget authority and other
     nonprofit reimbursable employers for        resources allocated to another agency be
     unemployment benefits paid on their         reported by the transferor; and for an error
     behalf, in the amount of $1.3 billion       in the classification within equity of certain
     for FY 2002 and $1.0 billion for            funds transferred from the Unemployment
     FY 2001.                                    Trust Fund to State Unemployment
                                                 Insurance and Employment Service
Our audit included testing these costs,          Operations. The correction of this error for
financing sources, and balances at the           periods prior to FY 2001 has been shown as
Federal level only. Pursuant to a mandate        a prior period adjustment in the statement
by Congress, the examination of these            of changes in net position for FY 2001.
transactions below the Federal level is
primarily performed by various auditors in       OTHER ACCOMPANYING
accordance with the Single Audit Act of          INFORMATION
1984, as amended, and OMB Circular A-
133. The results of those audits are             Our audit was conducted for the purpose of
reported to each Federal agency that             forming an opinion on the consolidated and
provides direct grants, and each Federal         combined financial statements of DOL
agency is responsible for resolving findings     taken as a whole. The accompanying
for its awards.                                  financial information discussed below is


OIG Report No. 22-03-004-13-001       Page 1.2
                                            ASSISTANT INSPECTOR GENERAL’S REPORT

not a required part of the principal financial              Bulletin No. 01-02. We did not test all
statements.                                                 internal controls relevant to operating
                                                            objectives as broadly defined by the
The Required Supplementary Information,                     Federal Managers’ Financial Integrity Act
included in the Management Discussion                       of 1982, such as those controls relevant to
and Analysis and FY 2002 Financial                          ensuring efficient operations. The
Performance Report sections of the                          objective of our audit was not to provide
Performance and Accountability Report,                      assurance on internal control.
and the Required Supplementary                              Consequently, we do not provide an
Stewardship Information are required by                     opinion on internal control.
the Federal Accounting Standards Advisory
Board and OMB Bulletin No. 01-09. We                        Our consideration of the internal control
have applied limited procedures, which                      over financial reporting would not
consisted principally of inquiries of                       necessarily disclose all matters in the
management regarding the methods of                         internal control over financial reporting that
measurement and presentation of the                         might be reportable conditions. Under
information. However, we did not audit the                  standards issued by the American Institute
information and express no opinion on it.                   of Certified Public Accountants, reportable
                                                            conditions are matters coming to our
The information in the Annual Performance                   attention relating to significant deficiencies
Report and the appendices of the DOL’s                      in the design or operation of the internal
Performance and Accountability Report is                    control that, in our judgment, could
presented for purposes of additional                        adversely affect the agency’s ability to
analysis. Such information has not been                     record, process, summarize, and report
subjected to the auditing procedures                        financial data consistent with the assertions
applied in the audits of the consolidated                   by management in the financial statements.
and combined financial statements and,                      Material weaknesses are reportable
accordingly, we express no opinion on it.                   conditions in which the design or operation
                                                            of one or more of the internal control
REPORT ON INTERNAL CONTROL                                  components does not reduce to a relatively
                                                            low level the risk that misstatements in
In planning and performing our audit, we                    amounts that would be material in relation
considered DOL’s internal control over                      to the financial statements being audited
financial reporting by obtaining an                         may occur and not be detected within a
understanding of the Department’s internal                  timely period by emp loyees in the normal
control, determined whether internal                        course of performing their assigned
controls had been placed in operation,                      functions. Because of inherent limitations
assessed control risk, and performed tests                  in internal controls, misstatements, losses,
of controls in order to determine our                       or noncompliance may nevertheless occur
auditing procedures for the purpose of                      and not be detected. We noted certain
expressing our opinion on the financial                     matters, discussed in the following
statements. We limited our internal control                 paragraphs, involving the internal control
testing to those controls necessary to                      and its operations that we consider to be
achieve the objectives described in OMB                     reportable conditions. However, none of

                                                 Page 1.3                 OIG Report No. 22-01-013-13-001
ASSISTANT INSPECTOR GENERAL’S REPORT

the reportable conditions is believed to be a     •   526 assets that should have been fully
material weakness.                                    depreciated at April 30, 2002. These
                                                      items have no current year depreciation
In addition, we considered DOL’s internal             expense but continued to have a net
control over Required Supplementary                   book value of $57 million.
Stewardship Information by obtaining an
understanding of the agency’s internal            The assets were fully depreciated as of
controls, determining whether they had            September 30, 2002, by adjustment.
been placed in operation, assessing control       However, Statement of Federal Financial
risk, and performing tests of controls as         Accounting Standards No. 6, Accounting
required by OMB Bulletin No. 01-02. The           for Property, Plant, and Equipment,
objective of our audit was not to provide         requires the calculation of depreciation to
assurance on these internal controls.             be a systematic and rational allocation of
Accordingly, we do not provide an opinion         the cost of general property, plant and
on such controls.                                 equipment over the estimated useful life of
                                                  the asset. In addition, GAO’s Standards
Finally, with respect to internal control         for Internal Control in the Federal
relating to performance measures included         Government require that internal controls
in the Performance Report, we obtained an         should be designed to assure that ongoing
understanding of the design of significant        monitoring occurs in the course of normal
internal controls relating to the existence       operations. The depreciation calculation
and completeness assertions as required by        for the items noted above was not
OMB Bulletin No. 01-02. Our procedures            adequately monitored to ensure a
were not designed to provide assurance on         systematic and rational allocation. This
internal control ove r reported performance       weakness in internal control over assets
measures, and, accordingly, we do not             valuation resulted in an overvaluation of
provide an opinion on such controls.              property reported in DOL’s FY 2001
                                                  financial statements.
REPORTABLE CONDITIONS
                                                  ETA agreed that there was an oversight on
Current Year Reportable Conditions                its part, but believes that this is an isolated
                                                  incident not requiring additional efforts or
Job Corps Real Property Depreciation              controls. However, we have concluded that
                                                  stronger internal controls should be
We noted discrepancies in the calculation         designed to help prevent future oversights.
of depreciation for capitalized ETA Job
Corps real property relating to 1998 and          We recommend that the Chief Financial
prior years. These discrepancies included:        Officer ensures that property valuations
                                                  reported by the capitalized assets tracking
•   13 assets that should have been fully         and reporting system (CATARS) are
    depreciated but continued to have a net       accurate by developing and documenting
    book value of $6 million at April 30,         internal controls that will include quarterly
    2002. Depreciation expense continued
    to be recorded each month.

OIG Report No. 22-03-004-13-001        Page 1.4
                                             ASSISTANT INSPECTOR GENERAL’S REPORT

reviews of the asset cost, net book value                   Prior Year Reportable Conditions
and depreciation expense.
                                                            Information Technology (IT) Controls
ILAB Excessive Cost Accruals
                                                            While the Department has made progress in
The Bureau of International Labor Affairs                   strengthening its IT environment in the last
(ILAB) has experienced rapid growth in its                  4 years, we noted several areas where the
appropriations during the la st several years,              Department can continue to make
with its funding more than doubling from                    improvements:
FY 2000 to FY 2001. This rapid growth
has resulted in challenges in accounting                    The Department lacks strong logical
methodologies for ILAB. Specifically, we                    security controls to secure the
have noted that ILAB does not have a                        Department’s data and information.
documented accrual methodology for the
costs of its grants, and that ILAB does not                 The Department still lacks strong logical
include subsequent verification of the                      security controls to secure the
estimated accruals when actual costs                        Department’s data and information. In the
become known. As a result, accrued costs                    performance of our internal vulnerability
were overstated by approximately $47                        assessment testing of the Department of
million at September 30, 2002. The cost                     Labor Accounting and Related Systems
accrual provisions of Grant Financial                       (DOLAR$) for FY 2002, we identified
System Requirements, issued by the Joint                    significant vulnerabilities involving general
Financial Management Improvement                            controls and security that resulted in an
Program (JFMIP), require subsequent                         alert report being issued to DOL’s Chief
verification of estimated accruals.                         Information Officer and Chief Financial
                                                            Officer. To address these vulnerabilities,
We recommend that the Chief Financial                       the Department needs to strengthen
Officer and the Assistant Secretary for                     technical security standards, administrative
Administration and Management ensure                        procedures, enforcement processes,
that a formal written accrual methodology                   monitoring processes and
is developed that satisfies all JFMIP system                response/recovery processes.
requirements. The methodology should
include procedures for the subsequent                       In response, management stated that while
verification of the accrual accuracy, and                   they believe the controls in place during
procedures for adapting the methodology as                  FY 2002 would have prevented a
necessary based on the verification results.                significant compromise of the data in the
                                                            DOLAR$ system, they consider any
Management concurs with the                                 security weakness to be serious.
recommendation made by the OIG. They                        Management has taken additional steps to
will review their current methodology and                   strengthen these controls.
select an accrual method more in line with
the specific types of ILAB grants.




                                                 Page 1.5                 OIG Report No. 22-01-013-13-001
ASSISTANT INSPECTOR GENERAL’S REPORT

Accountable Property                             on an annual basis to determine that all of
                                                 the items in CATARS exist and are in use.
We previously reported that several              A reconciliation should be performed to
agencies did not have adequate procedures        identify differences between the physical
and systems to track accountable property        inventory and CATARS. The differences
(general property, plant, and equipment that     should be researched to determine why they
does not meet the Department’s                   were not located. During our FY 2002
capitalization threshold). During FY 2002,       audit, we determined that the Department
DOL entered into a contract to conduct a         was not performing reconciliations of
preliminary review of current DOL                CATARS to the physical inventory.
property management operations and               Instead, the Department was comparing
property management systems, develop a           what was in CATARS to what was found,
new property management database and             and removed items from CATARS that
document responsibilities. This remains in       could not be found, rather than researching
the preliminary stages.                          to find out the actual disposition of the
                                                 missing assets.
Further, in FY 2002, the Department raised
its capitalization threshold from $25,000 to     Management concurs with the need to
$50,000, which will substantially decrease       develop stronger controls and is working to
the number of items requiring capitalization     correct these deficiencies.
and tracking in the capitalized property
system (CATARS). Because several                 Unemployment Insurance Benefit
agencies do not have adequate accountable        Overpayments
property systems, items below this new
threshold will not be tracked in any system;     We previously reported certain deficiencies
therefore, the potential risk of loss to the     in the internal controls over Unemployment
Department increases.                            Insurance (UI) benefit payments. We
                                                 identified that UI overpayment data
Management has stated that they agree with       collected by the Benefit Accuracy
the need to improve controls over                Measurement (BAM) data reflect
accountable property and are working to          significantly higher overpayments than
develop a Department-wide property               those established and reported by the states’
system.                                          Benefit Payment Control (BPC) system. In
                                                 FY 2002, management provided the OIG
Capitalized Assets                               with a detailed corrective action plan and
                                                 timeline, as well as descriptions of certain
We previously reported that management’s         actions already put into place. While we
capitalized asset tracking and reporting         generally concur with the corrective actions
procedures are inadequate to ensure that         described by management, certain actions
disposals of capitalized assets are reported     listed on the final timeline were not fully
in a timely and accurate manner, and that        described in the written plan, and certain
assets are adequately safeguarded against        decisions regarding the measurement of
loss or theft. To adequately safeguard           least-detectable and nonrecoverable
assets, a physical inventory should be taken     overpayments have yet to be finalized.

OIG Report No. 22-03-004-13-001       Page 1.6
                                          ASSISTANT INSPECTOR GENERAL’S REPORT

ETA agreed with the need to provide a new       •   ETA continues to operate without
plan, and recently provided a revised plan          written grant accounting procedures,
that will be reviewed during our FY 2003            both at the regional and National
audit work.                                         offices.

Accounting for Grants                           ETA management has taken certain actions
                                                and is continuing to implement
ETA’s grant accounting has the                  improvements to address our audit findings.
following deficiencies:
                                                REPORT ON COMPLIANCE WITH
•   While the number of grants in closeout      LAWS AND REGULATIONS
    reflects a steady decrease since            EXCLUSIVE OF THE FEDERAL
    FY 2000, our audit disclosed that the       FINANCIAL MANAGEMENT
    ending inventory of grants in closeout      IMPROVEMENT ACT OF 1996
    at September 30, 2002, does not include     (FFMIA)
    certain regional office grants that
    expired but were not identified for         The management of the DOL is responsible
    closeout or included in the tracking        for complying with laws and regulations
    system. We also noted that the final        applicable to the Department. As part of
    certification process is not being          obtaining reasonable assurance about
    performed timely.                           whether the Department’s financial
                                                statements are free of material
•   Transfers of WIA funds between              misstatement, we performed tests of its
    programs continue to be unaccounted         compliance with certain provisions of laws
    for in ETA’s accounting records.            and regulations, noncompliance with which
                                                could have a direct and material effect on
•   While ETA has stepped up its efforts to     the determination of financial statement
    obtain and record delinquent cost           amounts and certain laws and regulations
    reports from its grantees, our FY 2002      specified in OMB Bulletin No. 01-02,
    audit continued to note delinquent          including the requirements referred to in
    reporting.                                  the Federal Financial Management
                                                Improvement Act of 1996. We limited our
•   We continued to note data entry errors      tests of compliance to these provisions and
    in our grants testing. Errors were noted    we did not test compliance with all laws
    at both the regional offices, which are     and regulations applicable to the DOL.
    not recorded through the EIMS system,
                                                The results of our tests of compliance with
    and the national office. For example, at
                                                the laws and regulations described in the
    the national level we identified over
                                                preceding paragraph, exclusive of FFMIA,
    $250 million in negative cost entries       disclosed no instances of noncompliance
    posted. At the regional offices, we         with laws and regulations that are required
    noted errors in various Job Corps           to be reported under Government Auditing
    contracts selected for testing.             Standards and OMB Bulletin 01-02.



                                   Page 1.7             OIG Report No. 22-01-013-13-001
ASSISTANT INSPECTOR GENERAL’S REPORT

Providing an opinion on compliance with          In our opinion, as of September 30, 2002,
certain provisions of laws and regulations       DOL substantially complied with the
was not an objective of our audit and,           requirements of FFMIA, except for
accordingly, we do not express such an           applicable Federal accounting standards as
opinion.                                         described below:

REPORT ON COMPLIANCE WITH                        Implementation of Managerial Cost
FFMIA                                            Accounting

We have examined DOL's compliance with           The Department of Labor is not in
the requirements of FFMIA as of                  compliance with the requirements for
September 30, 2002. These include                managerial cost accounting contained in
implementing and maintaining financial           Statement of Federal Financial Accounting
management systems that substantially            Standards Number 4 (SFFAS No. 4), The
comp ly with: (1) financial management           Managerial Cost Accounting Concepts and
systems requirements, (2) applicable             Standards for the Federal Government.
Federal accounting standards, and (3) the        Specifically, DOL has not defined outputs
United States Government Standard                for its operating programs nor developed
General Ledger (SGL) at the transaction          the capability to routinely report the cost of
level. Management is responsible for             outputs at the operating program and
DOL's compliance with these requirements.        activity levels for use in managing program
Our responsibility is to express an opinion      operations. Additionally, DOL does not
on DOL's compliance based on our                 use managerial cost information for
examination.                                     purposes of performance measurement,
                                                 planning, budgeting or forecasting.
Our examination was conducted in
accordance with the attestation standards        Noncompliance with requirements for
established by the American Institute of         managerial cost accounting persists
Certified Public Accountants; Government         primarily because DOL has not succeeded
Auditing Standards, issued by the                in its efforts to implement a functional
Comptroller General of the United States;        managerial cost accounting system.
and OMB Bulletin No. 01-02, Audit                System implementation has not been
Requirements for Federal Financial               successful because agency and program
Statements. These standards include              management responsible for the vast
examining on a test basis, evidence about        majority of DOL’s operating programs
DOL's compliance with those requirements         have not actively participated in the
and performing such other procedures as          implementation effort led by the Office of
we considered necessary in the                   the Chief Financial Officer.
circumstances. We believe that our
examination provides a reasonable basis for      We recommend that the Chief Financial
our opinion. Our examination does not            Officer ensures the development of a
provide a legal determination on DOL's           comprehensive Department-wide
compliance with specified requirements.          managerial cost accounting system
                                                 implementation plan by June 30, 2003, that

OIG Report No. 22-03-004-13-001       Page 1.8
                                           ASSISTANT INSPECTOR GENERAL’S REPORT

will be fully operational by January 28,                  This report is intended solely for the
2006.                                                     information and use of the management of
                                                          the U.S. Department of Labor, the Office of
In accordance with the provisions and                     Management and Budget, and Congress,
requirements of the Act, the Secretary of                 and is not intended to be and should not be
Labor has determined that the Department                  used by anyone other than these specified
of Labor financial management systems are                 parties.
in substantial compliance with the FFMIA.
However, the OIG maintains the position
that since costs are not captured and
reported at the level required and there is               ELLIOT P. LEWIS
not in place an integrated system that can                Assistant Inspector General for Audit
be used by managers to manage DOL
programs on a day-to-day basis, the                       January 6, 2003
Department has not implemented
managerial cost accounting as required by
the standard. Therefore, the OIG’s opinion
is that the Department is not in substantial
compliance in this regard.

              —————




                                               Page 1.9                OIG Report No. 22-01-013-13-001
